No. 20-5075
IN THE

Supreme Court of the United States
JORGE HIRAM BÁEZ–MARTÍNEZ
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and
the Court’s April 15, 2020 Order, all parties required to be served have
been served with copies of the foregoing PETITION FOR REHEARING
UNDER SUPREME COURT RULE 44.2, via e-mail, today July 15, 2021.
All parties had previously consented to electronic service consistent with
this Court’s order of April 15, 2020: Elizabeth B. Prelogar, Acting Solicitor
General, United States Department of Justice, 950 Pennsylvania Ave.,
NW, Washington, D.C. 20530-0001, SupremeCtBriefs@usdoj.gov, (202)
514-2217. I also sent the petition with two copies via FedEx to the Court.
I declare under penalty of perjury the foregoing is true and correct.
Executed on July 15, 2021.
S/FRANCO L. PÉREZ-REDONDO

Assistant Federal Public Defender
Federal Public Defender,
District of Puerto Rico
241 F.D. Roosevelt Ave.
San Juan, PR 00918
(787) 281-4922
Franco_Perez@fd.org
July 15, 2021

